<html>
<title> - NOMINATION OF JOSEPH L. NIMMICH</title>
<body><pre>[Senate Hearing 113-705]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-705
 
                    NOMINATION OF JOSEPH L. NIMMICH

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS


                             SECOND SESSION

                               __________

              NOMINATION OF JOSEPH L. NIMMICH TO BE DEPUTY
ADMINISTRATOR, FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF 
                           HOMELAND SECURITY

                               __________

                             JULY 24, 2014

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                          U.S. GOVERNMENT PUBLISHING OFFICE
91-180PDF                     WASHINGTON : 2015                          

________________________________________________________________________________________        
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7c1b0c133c1f090f081419100c521f131152">[email&#160;protected]</a>  
       
        
        
        
        
        
        
        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota

                  Gabrielle A. Batkin, Staff Director
               John P. Kilvington, Deputy Staff Director
            Deirdre G. Armstrong, Professional Staff Member
          Jason T. Barnosky, Senior Professional Staff Member
                Robert H. Bradley, Legislative Assistant
               Keith B. Ashdown, Minority Staff Director
         Christopher J. Barkley, Minority Deputy Staff Director
               Andrew C. Dockham, Minority Chief Counsel
         Daniel P. Lips, Minority Director of Homeland Security
   Natalie K. Fussell, Minority U.S. Department of Homeland Security 
                Office of the Inspector General Detailee
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk
                            
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Begich...............................................     1

                               WITNESSES
                        Thursday, July 24, 2014

Joseph L. Nimmich, Nominee to be Deputy Administrator, Federal 
  Emergency Management Agency, U.S. Department of Homeland 
  Security
    Testimony....................................................     2
    Prepared statement...........................................    11
    Biographical and financial information.......................    15
    Letter from the Office of Government Ethics..................    36
    Responses to pre-hearing questions...........................    38
    Responses to post-hearing questions..........................    70
    Letters of support...........................................    77


                    NOMINATION OF JOSEPH L. NIMMICH

                        THURSDAY, JULY 24, 2014

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:46 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Mark Begich, 
presiding.
    Present: Senator Begich.

              OPENING STATEMENT OF SENATOR BEGICH

    Senator Begich. Thank you very much, and welcome again to 
the Committee on Homeland Security and Governmental Affairs, we 
appreciate you being here. We will call the Committee to order.
    We are here today to consider the nomination of Joseph L. 
Nimmich to be Deputy Administrator for the Federal Emergency 
Management Agency (FEMA). As a former mayor, I know how 
critical it is to have leadership positions filled by capable 
people. I also understand the gaps in productivity and 
innovation and overall progress that can occur when key 
positions are vacant. It is for that reason I wanted to express 
my frustration with the situation we find ourselves in today, 
not due to you being here, or FEMA, but to the White House and 
how they operate on their nominations.
    I am just very frustrated that for months people have been 
aware of this position, and now suddenly we are given your 
position to be nominated and move forward in the Committee, and 
we are being asked to move it very quickly--which I am happy to 
do. My frustration is not with you or FEMA. It is with the 
White House and their ability--or inability. So those who 
represent the White House here, please take note, and I hope 
you present that back over there.
    Again, we have waited 6 months. We knew this was coming, 
and now we need to rush it through.
    I know the nomination process is subject to many delays and 
consideration, but vetting and confirming nominees is one of 
the most important functions of this Committee, and we must be 
able to do our due diligence.
    Committee staff on both sides of the aisle have worked very 
hard to expedite this process, and I appreciate their hard 
work. And I appreciate your hard work, Mr. Nimmich, during the 
prehearing phase, as we worked on such an expedited timetable. 
I spoke with FEMA Administrator Craig Fugate earlier this week, 
and I could hear his enthusiasm for your nomination, which I 
hope we can get completed very quickly in a favorable manner.
    While some of your answers to the prehearing questions were 
encouraging, especially with such a needed focus on workforce 
improvements, similar to the Committee hearing we just had, I 
remain concerned that FEMA may be stuck in the mud on some of 
the most critical challenges facing the agency.
    We have already heard your testimony and questioned you in 
our previous hearing, so we will not rehash those issues. But I 
wanted to be sure you recognize the many FEMA issues we have 
concerns about.
    As you transition into your new position and better 
identify the role you will play implementing Administrator 
Fugate's vision for the agency, we hope you will keep open 
lines of communication with this Committee. I look forward to 
addressing my various concerns in the question-and-answer 
period, so I will conclude my remarks here, and if we can, we 
will go ahead and start. If I can have you stand, the rules 
require that all witnesses at nomination hearings give the 
testimony under oath, and so let me go ahead. Mr. Nimmich, 
would you please stand and raise your right hand? Do you swear 
that the testimony you are about to give to the Committee will 
be the truth, the whole truth, and nothing but the truth, so 
help you, God?
    Mr. Nimmich. I do.
    Senator Begich. Please be seated.
    Since we already introduced you, Mr. Nimmich, in the last 
one, I will just let you introduce your family members, which I 
had the great pleasure to meet several of them as we were 
getting ready, and then we will go into your opening statement. 
Please.

    TESTIMONY OF JOSEPH L. NIMMICH,\1\ NOMINEE TO BE DEPUTY 
   ADMINISTRATOR, FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Nimmich. Thank you. Thank you, Senator, and my 
statement has my introduction of the family, so if you do not 
mind, I will go through it so they can hear the way I have 
written it. [Laughter.]
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Nimmich appears in the Appendix 
on page 11.
---------------------------------------------------------------------------
    That way I get it right.
    Senator Begich. That means they wrote it to make sure you 
said everything right. [Laughter.]
    Mr. Nimmich. Good afternoon, Chairman Begich. I also would 
like to acknowledge Chairman Carper, Ranking Member Coburn, and 
Members of the Committee. Thank you for the opportunity to 
testify before you today.
    I come before you as the nominee for the Deputy 
Administrator of the Federal Emergency Management Agency. I am 
humbled by the President's nomination and honored by the 
opportunity to continue to serve my country. Before I begin, I 
need to thank my wife, Cindy, and my children Lizzie, Abby, and 
Mallory, who are joining me here today. I would also like to 
thank my daughters Katie and Becky who are unable to be here 
due to scheduling difficulties, but I am told they are watching 
it on the Web. I would not be here without their love and 
support and the patience that they have for the times that my 
job has taken me away from home, and undoubtedly will again in 
the future. I also need to take a moment to thank Administrator 
Fugate for his leadership, his counsel, and his trust that he 
has afforded me.
    Sir, as a Coast Guard officer for over 33 years, I have 
developed the leadership skills, management expertise, and 
strategic and operational decisionmaking ability to help lead 
FEMA. I would like to take a moment to tell you how I believe 
my experiences have prepared me for this opportunity.
    As former Commanding Officer of Coast Guard Key West, I am 
personally aware of the challenges facing local communities as 
they work hard to prepare for, respond to, and recover from 
disasters. During that assignment, I worked closely with city 
and county officials. I have seen firsthand the issues facing 
local emergency managers as they balance the many competing 
requirements of local government.
    As Director for Joint Interagency Task Force-South, I 
worked with interagency and international partners and 
navigated the opportunities and challenges involved in the 
interagency coordination process. I served tours at Coast Guard 
headquarters, where I managed the Federal budget process, 
developed strategic plans, and instituted performance-based 
management tools. If confirmed, I will continue to leverage 
this experience to help FEMA improve on its core capabilities 
and build on FEMA's interagency disaster response processes.
    I have also shouldered great responsibility--not just for 
budgets and plans, but for the well-being of men and women in 
uniform. My proudest and most humbling experiences with the 
Coast Guard were providing for the safety and well-being of my 
crew through three afloat commands and three ashore commands. 
When in command you must be able to rapidly and correctly 
assess the situation and effectively make critical decisions. 
My experience in the Coast Guard helped me develop quick 
decisionmaking capability based on the best information 
available. I will continue to use that skill set to achieve 
FEMA's missions in support of disaster survivors and States and 
local communities as well as tribes.
    Over the past year as FEMA's Associate Administrator for 
Response and Recovery, I have overseen a number of disaster 
responses across the country, including the tornadoes in Moore, 
Oklahoma; the floods in Galena, Alaska, and across Colorado; 
and the mudslides in Washington State. Throughout these 
operations, I worked with my team to hone FEMA's ability to 
employ both traditional recovery capabilities and alternate 
procedures, cutting through bureaucratic challenges to help 
disaster survivors and communities recover and rebuild. In 
every case, I have looked for lessons to improve FEMA's 
performance in the next disaster.
    If confirmed as FEMA's Deputy Administrator, my focus will 
be threefold: to steady FEMA's disaster workforce; to stabilize 
FEMA's policies; and to develop the data analytics to support 
rapid, effective, and efficient decisionmaking. To this end, I 
will focus on effective management of FEMA's processes, 
particularly human resources, information technology (IT) 
systems and their security, and contracting and acquisition--
all of which form the foundation necessary to reinforce a 
strong workforce that can effectively respond to and support 
the Nation in a time of disaster. We also need to better define 
FEMA's policies, simplifying and streamlining them whenever 
possible. Finally, we must harness geospatial technology to 
more swiftly respond to the impacts of disasters in real time. 
Developing FEMA's critical analytic capability will allow us to 
more effectively utilize existing information systems for swift 
and sound decisionmaking.
    I believe that fostering a close working relationship with 
Congress is critical to delivering the highest level of service 
to the American people. If confirmed, I will continue to build 
relationships with you and your colleagues to ensure Congress 
has access to the information it needs to fulfill its oversight 
missions. I will also continue to work with the full spectrum 
of Federal agencies within the Executive Branch, particularly 
the Office of Management and Budget, the Inspector General 
(IG), and the Government Accountability Office (GAO).
    Providing States, survivors, and communities with the 
resources they need in an efficient and effective manner is my 
primary focus. Based on our conversations during previous 
hearings, I have no doubt that this Committee is focused on the 
same. The American people deserve an emergency management 
workforce that is capable, competent, and prepared to meet the 
challenges of the future. It is my hope that, if I am 
confirmed, I can continue to help strengthen FEMA's workforce 
and develop and improve its core capabilities, sustaining the 
organization into the future as a well-managed, performance-
focused agency able to meet the expectations of the Nation.
    Thank you, Mr. Chairman, for this opportunity to appear 
before you, and I look forward to answering your questions.
    Senator Begich. Thank you very much. I have three standard 
questions in regards to your nomination, the first question is: 
Is there anything that you are aware of in your background that 
might present a conflict of interest with the duties of the 
office to which you have been nominated?
    Mr. Nimmich. Sir, I have no known conflicts of interest for 
the office to which I am looking to be confirmed.
    Senator Begich. Do you know of any reason, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Nimmich. Sir, if confirmed, there are no reasons, 
personal or otherwise, that would prevent me from fulfilling 
the requirements of the office to which I am nominated.
    Senator Begich. Do you know of any reason, personal or 
otherwise, that would in any way prevent you from serving the 
full term of the office to which you have been nominated?
    Mr. Nimmich. Sir, if confirmed, there are no reasons that I 
will not be able to complete the full term for the office to 
which I am nominated.
    Senator Begich. Thank you very much. I also have several 
letters that I will make sure are entered into the record\1\ 
from different groups recommending you for this position. 
---------------------------------------------------------------------------
    \1\ The letters of support referenced by Senator Begich appear in 
the Appendix on page 77.
---------------------------------------------------------------------------
    I just have some basic questions, and because we had a very 
good conversation on the Committee hearing just before this, I 
am not going to go into a lot of broad issues. I will have some 
specific Alaskan issues.
    But, first, what do you believe--and you kind of said it in 
your opening on some of the things you wanted to work on, that 
you believe your principal responsibilities will be for this 
new position? And again, you are in a unique position because 
you are already in the system, but give me your thoughts on 
that, if you could.
    Mr. Nimmich. Yes, sir, and I think they warrant to be 
reiterated. Our workforce is our keystone. It is what makes us 
successful or not successful. We owe the workforce the ability 
to give them the training and experience and the equipment 
necessary to do their job. And then I need to hold them 
accountable that they do their job.
    Much of what we have heard from the IG and the GAO go back 
to information provided very early in a disaster that has not 
supported the subgrantee or the grantee in making the right 
choices. And then the IG comes in afterwards, much later in the 
process, and we are in that debate as to how do we rectify that 
situation.
    I want a workforce that does not create those problems, 
that rectifies the situation right from the beginning. I need 
to give them the ability and the tools so our IT systems and 
our information systems, will give them better analytics to 
understand the situation.
    Finally, a lot of our policies are overly complex, overly 
difficult to interpret, even for our own workforce, and we need 
to make sure that we stay within the letter of the law and the 
spirit of the law, but that we make them as clean and as clear 
and as deliverable as possible to our customers, which are the 
citizens of this country.
    Senator Begich. Your last comment there, it made me think--
I had a note here on how long it takes some of the regulation 
process to move through FEMA. One, for example, is 8 years to 
get through, which also, as you can imagine, you are a disaster 
relief agency, so you have immediate needs every day, and yet 
if you cannot do a regulation, it can take up to 8 years.
    What are some of your thoughts on how to--and these are my 
words, and I am not sure it is the right words to use, but 
streamline the process so you can get these regulations in 
place when there is a need to have guidelines, maybe, for 
example--I know you are working on the tribal regulations now. 
I would hate to see that take 8 years. But give me a thought 
there.
    Mr. Nimmich. So I want to delineate between two, sir. One 
is our policies, and then the others are what are really 
regulatory. The regulations do require an awful lot of effort, 
and you know that we will be looking at the factors in terms of 
declaration, not just for tribes but overall for States also. 
Those are going to be some of the challenges, and we need to 
stay focused on them, and we need to move them as quickly as we 
can, realizing that there are issues that are not always within 
our control.
    But you have my commitment to move those as quickly as 
possible, particularly tribal, because we opened the existing 
State criteria for disasters for tribes, but those do not take 
into consideration cultural issues and the capabilities of the 
tribes. So we are working very diligently to try to come up 
with a set of criteria that are more appropriate for the 
tribes.
    The other side is policy, and sometimes it is the policies 
that we create and make overly restrictive in terms of what the 
regulations actually allow us to do. We need to make sure that 
we continue to look at those policies in a way that we, in 
fact, enforce that regulation, but do not necessarily make it 
more difficult--or easier on us rather than easier on the 
survivors, the subgrantees, and the grantees, sir.
    Senator Begich. What would you consider--obviously you are 
moving to a different job. What would you consider your 
weakness that you know you have and know that in order to be 
successful in this job, you have to work on it? What would you 
say? I should try and ask your wife. [Laughter.]
    Mr. Nimmich. You might get a whole different set.
    Senator Begich. I saw her smiling back there.
    Mr. Nimmich. Sir, I have the zeal to solve problems, and 
often the weakness is we try to take on too many and, 
therefore, we do not resolve those.
    When I came to FEMA, I really looked at three imperatives 
every day, and those imperatives can become overwhelming in and 
of themselves. But that is the workforce. We have to keep focus 
on the workforce, and that is one of the reasons Administrator 
Fugate has asked me to take this job. We need to get that 
disaster workforce trained and the tools that they need to do 
their job. The policies, and then the ability to use the data 
that we have, those three imperatives--the analytics and the 
data capabilities, stabilizing our policies, and steadying that 
workforce are three things that I look at every day. And by 
using those, I try to remain focused as opposed to allowing 
virtually every problem to become a challenge and, therefore, 
get nothing done.
    Senator Begich. Got you. In Alaska we have over 200 tribes, 
and there are obviously tribes all across the country, and we 
want to make sure that we are doing everything we can to make 
sure they have the knowledge, the training, the expertise, and 
so forth. But I am concerned that FEMA may not be able to 
handle this at this point. Tell me how we--and I say ``we'' 
collectively, to make sure that FEMA can ensure that there is 
sustainable levels of training for tribes and others within the 
tribal community, not only in Alaska but throughout the 
country, as they are entering into this kind of new potential 
process. How do we make sure that happens with the resources 
you have?
    Mr. Nimmich. So, sir, initially when the Sandy legislation 
was passed, the Administrator made it very clear we were not 
going to wait until we received new resources to implement 
these. We have carved resources out of the agency. In every 
region we now have a tribal liaison. We have just hired the 
tribal liaison here at headquarters. Mr. Booth, who happens to 
be an Alaska Native, brings to us some of that expertise. But 
we need to start taking those discussions and that counseling 
that we get from the tribes as to what do they really need and 
how much do they need. And then we need to come back and find 
whether we can identify additional resources inside FEMA or 
whether we need to ask for additional resources to do the job 
right.
    What I can commit to you is we have started to build a 
tribal liaison corps and that we are going to continue to focus 
on tribal issues with the expedience that we can have.
    Senator Begich. In a broader issue, the issue--and I have 
had a hearing on this and some other discussion regarding 
mitigation, what is happening with climate change, the impacts 
it is having on more severe storms, more costly storms, or 
disasters, I should say, in a broader sense, weather related. 
But one of the things I have noticed within FEMA, the pre-
disaster mitigation (PDM) funds have gone the wrong direction 
in funding. And my concern is: Is it better to do pre-disaster 
or post-disaster investment? To me, obviously, it seems like, 
well, why wouldn't we want to--we recognize this is happening. 
Why are we not spending more time? But yet, when I look at the 
PDM program, it seems to be going the wrong way.
    Mr. Nimmich. Sir, I think that most of the studies indicate 
if you can mitigate the disaster or mitigate some of the 
impacts of the disaster before it happens, it has a much larger 
dollar value. But we also cannot sacrifice our ability to 
respond to disasters. That is the first and foremost. So you 
are correct that there has been a declining PDM budget. The 
President has asked for above-the-line authority to continue 
the PDM process.
    What we are trying to do inside FEMA is look at the 
mitigation money that we have in other areas, in our recovery 
program, in our insurance programs, in the Federal Insurance 
and Mitigation Administration (FIMA)--the Federal insurance 
management part of FEMA--and how can we associate those and 
correlate those in a much better way to be able to do some of 
that mitigation, albeit after the fact of the disaster, but in 
a way that when we repair something or we make it so that it is 
insurable, we make it so that the risk is reduced dramatically 
by the works that we do rather than not having a correlated or 
a coordinated response.
    Senator Begich. You have done a good job last Committee 
hearing and this one here, but let me ask you, this was one 
that just drives me crazy, and it is the flood mapping and how 
to get these accurate.
    I was in the Matanuska Valley recently, which is just 
outside of Anchorage, and 40 percent of the maps are 
inaccurate, which, of course, means people are paying for flood 
insurance they should not have to pay for, or vice versa, they 
should have flood insurance but they are not in the mapping 
zone.
    Then we have different agencies that have different 
technology for their maps and different requirements for their 
maps. This seems to be a never-ending problem and an expensive 
problem probably to solve.
    In your list of responsibilities, is this one that you 
recognize as an agency we need to get after? Because it seems 
like with all the resources of mapping, maybe the National 
Oceanic and Atmospheric Administration (NOAA) or FEMA, you 
guys, the U.S. Geological Survey (USGS), the Bureau of Land 
Management (BLM), and the U.S. Department of Transportation 
(DOT), we will re-map an area seven different times from 
different agencies, and yet for some reason we are not sharing 
this data, and it seems like there should be a baseline data 
sharing that should be going on to help make this job a little 
bit easier.
    Can you give me some thought on that? And it is something 
that you will hear a lot on a regular basis from me.
    Mr. Nimmich. Yes, sir. There is no question that flood 
mapping and risk mapping are key focal points for the oversight 
committees, as they should be. We go to look at mapping and use 
the resources we have for creating the flood maps. Then the 
follow-on to that is the risk maps, how much of the risk that, 
in fact, creates, we do use experts in those fields. Those 
experts often look at all of the different factors that you 
have taken in. That is part of what the expense of the program 
is. We try to look at as many pieces of information and as much 
data as possible to be able to put the most correct map in 
place.
    The world is a dynamic and continually changing 
environment, and simple things like, a flood that goes through 
Colorado completely changes the way that the watershed looks 
and drives a lot of our decisions. Fifty-two percent of our 
maps have been looked at and are accurate and can be used. We 
know that we have a lot more work to do, and we are continuing 
to do that. We are prioritizing based on where those maps will 
produce the most results in terms of the potential risks the 
country faces, sir.
    Senator Begich. I am going to end my questions at this 
point. Just a couple things.
    One, you heard in my last commentary how important it is 
that we believe our role here is oversight and constantly doing 
analysis and research regarding FEMA's work, talking to the IG 
and the GAO to make sure that we do our job here so we do not 
look back 5 years from now and say why didn't we ask this 
question, or we did, but they had a report, but no one 
responded to it. That is something you will feel from us. I say 
that in a polite way. You will feel that on a regular basis. It 
may be in a room like this or with staff in conversations. And 
I hope you will be receptive to that and that is not something 
that as an agency person you will hesitate to respond. Any 
thought on that?
    Mr. Nimmich. Yes, sir. If confirmed, I intend to continue 
to work very closely with you personally and with your staff. 
We have had great conversations over the last several months in 
terms of working toward producing the report that you released 
today. Your staff has been very inquisitive, digging very 
deeply into the challenges we face. And, sir, the oversight 
helps us do a better job for the public we serve, and you are 
the voice of that public. So we look forward to continuing to 
work, and if I am confirmed, sir, I will answer your questions 
wherever you have them.
    Senator Begich. Fantastic. Let me pause for a second.
    [Pause.]
    I would like to thank you for your appearance here before 
the Committee, and your family, because I know it means--you 
thought he spends a lot of time at work now. He will spend more 
because, by that design, he will be dragged down here when 
probably you do not want to be. But I appreciate it, your 
willingness to serve in this very important job, but also your 
public service, because that is what it is. And you will be 
part of running an agency that is delivering services in times 
of need where people are at a crisis state. So thank you for 
your willingness to do that.
    For the record, the nominee has filed responses to the 
biographical and financial questionnaires. Without objection, 
this information will be made as part of the hearing record,\1\ 
with the exception of the financial data, which are on file and 
available for public inspection in the Committee offices.
---------------------------------------------------------------------------
    \1\ The biographical and financial questionnaire for Mr. Nimmich 
appears in the Appendix on page 15.
---------------------------------------------------------------------------
    Without objection, the record will be kept open until 5 
p.m. tomorrow for the submission of any written questions or 
statements for the record.
    At this time the hearing is adjourned.
    [Whereupon, at 4:11 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
